               U.S. DEPARTMENT OF LABOR
              OFFICE OF INSPECTOR GENERAL
                     OFFICE OF AUDIT

        ASSISTANT INSPECTOR GENERAL== S REPORT ON
            APPLYING AGREED-UPON PROCEDURES

     RETIREMENT, HEALTH BENEFITS, AND LIFE INSURANCE
WITHHOLDINGS/CONTRIBUTIONS AND SUPPLEMENTAL SEMIANNUAL
          HEADCOUNT REPORT SUBMITTED TO THE
           OFFICE OF PERSONNEL MANAGEMENT

          FOR THE YEAR ENDED SEPTEMBER 30, 2001




                                      Report Number: 22-02-003-13-001
                                      Date Issued: December 19, 2001
                                                                           Table of Contents



ACRONYMS.....................................................................................................................................................................................i

EXECUTIVE SUMMARY..............................................................................................................................................................1

ASSISTANT INSPECTOR GENERAL’S REPORT
   ON APPLYING AGREED-UPON PROCEDURES ...............................................................................................................2

AGREED-UPON PROCEDURES AND RESULTS ......................................................................................................................3
                                  ACRONYMS


APO      Agency Payroll Office
CFO      Chief Financial Officer
CSRS     Civil Service Retirement System
DOL      Department of Labor
DOLAR$   Department of Labor Accounting and Related Systems
EE       Employee Express
FEHB     Federal Employee Health Benefits
FERS     Federal Employee Retirement System
GAO      General Accounting Office
IDEA     Interactive Data Extraction & Analysis
IPS      Interactive Payroll System
OA       Office of Audit
OCFO     Office of Chief Financial Officer
OIG      Office of Inspector General
OMB      Office of Management and Budget
OPM      Office of Personnel Management
RITS     Retirement and Insurance Transfer System
SGL      Standard General Ledger




                                         i
                                      EXECUTIVE SUMMARY


We performed the procedures specified in OMB Bulletin 01-02, Audit Requirements for Federal Financial
Statements, Agreed Upon Procedures, Appendix I-1, to assist the U.S. Office of Personnel Management
(OPM) in assessing the reasonableness of retirement, health and life insurance withholdings/contributions as
well as enrollment information submitted via the Supplemental Semiannual Headcount Report.

This special report includes the agreed-upon procedures results for retirement, health and life insurance
withholdings/contributions, and employee headcount information submitted to OPM.

Our procedures were performed in accordance with standards established by the American Institute of
Certified Public Accountants and Government Auditing Standards, issued by the Comptroller General of the
United States. In accordance with these standards, we are reporting on applying the agreed-upon procedures
on the retirement, health and life insurance withholdings/contributions and employee headcount submitted by
the U.S. Department of Labor (DOL) to OPM. The report includes the agreed-upon procedures performed
and the detailed results of those procedures.

We performed certain agreed-upon procedures, which assessed the reasonableness of the retirement, health
and life insurance withholdings/contributions and employee headcount submitted to OPM. No significant
results were revealed from our application of procedures. We were not engaged to, nor did we perform, an
audit of the retirement, health and life insurance and employee headcount of the DOL.




                                                       1
                      ASSISTANT INSPECTOR GENERAL’S REPORT
                      ON APPLYING AGREED-UPON PROCEDURES


U.S. Office of Personnel Management
The Honorable Patrick E. McFarland,
   Inspector General

We have performed the procedures described in OMB Bulletin 01-02, Audit Requirements for Federal
Financial Statements, Agreed Upon Procedures, Appendix I-1, which were agreed to by the Inspector
General, the Chief Financial Officer, and the Associate Director for Retirement and Insurance Service of the
U.S. Office of Personnel Management (OPM), solely to assist OPM with respect to the reasonableness of
employment withholdings and employer contributions reported on the Report of Withholdings and
Contributions for Health Benefits, Life Insurance, and Retirement for the payroll periods ended December 2,
2000; January 27, 2001; and March 10, 2001; and the Supplemental Semiannual Headcount Report as of
March 31, 2001. This engagement to apply agreed-upon procedures was performed in accordance with the
standards established by the American Institute of Certified Public Accountants and Government Auditing
Standards, issued by the Comptroller General of the United States. The sufficiency of the procedures is
solely the responsibility of the Inspector General, the Chief Financial Officer, and the Associate Director for
Retirement and Insurance of OPM. Consequently, we make no representation regarding the sufficiency of
the procedures described below either for the purpose for which this report has been requested or for any
other purpose.

We were not engaged to, and did not, perform an audit, the objective of which would be the expression of an
opinion on the withholding and contributions of Health Benefits, Life Insurance, and Retirement and the
employee Headcount Report of the U.S. Department of Labor. Accordingly, we do not express such an
opinion. Had we performed additional procedures, other matters might have come to our attention that would
have been reported to you.

This report is intended solely for the information and use of the Inspector General, the Chief Financial
Officer, and the Associate Director for Retirement and Insurance of OPM and is not intended to be and
should not be used by anyone other than these specified parties. This report should not be used by those who
have not agreed to the procedures and taken responsibility for the sufficiency of the procedures for their
purposes.




John J. Getek
Assistant Inspector General for Audit
U.S. Department of Labor


December 10, 2001
                  AGREED-UPON PROCEDURES AND RESULTS

Step        Agreed-Upon Procedures Performed                                   Results of Procedures

1a     Foot the payroll register or payroll data file that   We footed, without exception, the payroll
       contains the payroll information associated           information associated with the RITS submissions.
       with the RITS submissions.

1b     Trace employee withholding information                We traced the footed payroll withholding and
       shown on the footed payroll information for           contributions to the corresponding amounts on
       retirement, health, and life insurance benefits       RITS submissions selected for the AUP. The
       (as adjusted for reconciling items) to the            differences are as follows:
       related amounts shown on the RITS
                                                                                   Withholding           Contribution
       submission for the corresponding period.                                Amount ($)  Percent   Amount ($)   Percent
                                                             Pay Period 25
                                                             Life Insurance      2,584.49     0.82       159.74      0.25
                                                             Health Benefits     1,824.10     0.25    12,586.14      0.70
                                                             Retirement         19,114.66     1.26   101,006.88      2.85

                                                             Pay Period 03
                                                             Life Insurance        355.08     0.11        81.67      0.13
                                                             Health Benefits     1,795.69     0.22    13,579.52      0.69
                                                             Retirement          8,401.07     0.61    24,011.34      0.67

                                                             Pay Period 06
                                                             Life Insurance      3,135.21     0.98       (40.52)    -0.06
                                                             Health Benefits       (86.67)   -0.01     8,389.76      0.42
                                                             Retirement         22,309.39     1.59    12,910.87      0.36



1c     Obtain support for difference between                 Supporting documentation for the differences was
       amounts shown on the source payroll                   not provided.
       information or derived from the files footed in
       step 1a and amounts shown on the RITS
       submission selected.

1d     Trace reconciling items to supporting                 Reconciling items were not provided.
       documentation and verify agreement.

1e     Foot each RITS submission selected.                   We footed, without exception, the RITS submission
                                                             for the selected pay periods.

2      Review the APO’s reconciliation of the payroll        The APO prepares a DOLAR$/PAYROLL compare
       data file to the general ledger accounts or if        report to reconcile the payroll data file with the
       such a reconciliation does not exist, perform         general ledger. There were no unsupported
       the reconciliation.                                   differences. The APO posts the employer share of
                                                             contribution for Retirement, Health Benefits, and
                                                             Life Insurance to SGL 6400. The employee share is
                                                             a part of the employee gross salary and it is
                                                             reported in SGL 6100.

3      Randomly select a total of 25 individuals who         We used the IPS database provided and extracted
       were on the payroll system for all three of the       the three selected pay periods using IDEA software.


                                                      3
Step       Agreed-Upon Procedures Performed                            Results of Procedures
3      RITS submissions selected for testing, that       We then used IDEA to select a random sample of
       have retirement, health and life insurance and   25 employees that met the criteria in Step 3.
       at least one optional life insurance coverage.

3a     Verify that the base salary used for payroll     We verified, without exception, that the base salary
       purposes agrees with the base salary reflected   shown on the payroll register agrees with the
       on the employee’s SF-50.                         approved base salary reflected on the employee’s
                                                        Personnel Action, SF-50.

3b     For Retirement, verify that amounts withheld     We found two sample items with unsubstantiated
       and contributed for participants in the CSRS     differences. One sample item had two differences;
       and the FERS are correct, based upon the         excess employee withholdings in the amount of
       official withholdings and contribution rates     $16.97 and excess employer contributions in the
       required by law.                                 amount of $379.41. The other sample item had an
                                                        unsubstantiated difference in employee withholdings
                                                        in the amount of $173.70.

3c     For health benefits, verify that the employee    We verified, without exception, that the employees
       withholdings and agency contributions agree      were enrolled in the selected plan and that the
       with the official subscription rates issued by   withholding rates and agency contributions agreed
       OPM for the plan and option elected, as          with the subscription rates.
       documented by form SF 2809 in the
       employees OPF or through Employee Express.

3d     For life insurance, verify that Basic Life       We found one item that had differences in Basic
       Insurance was elected by the employees, as       Life Insurance employee withholdings and employer
       documented by a SF 2817 in the employees’        contributions. Both differences could not be
       OPF and that the contributions and               substantiated and were in the amounts of $2.17 for
       withholdings are correct.                        employee withholdings and $1.08 for employer
                                                        contributions.

3e     Verify Optional coverage was elected, as         We found two items with differences in Optional
       documented by a SF 2817 in the employee’s        employee withholdings. One item had two
       OPF, and that withholdings are correct.          differences, which resulted from the APO not
                                                        changing the employee’s withholding based on a
                                                        change in age, in the amounts of $0.20 for Option A
                                                        coverage and $0.60 for Option C coverage and the
                                                        second item had one difference which could not be
                                                        substantiated in the amount of $0.42 for Option B
                                                        coverage.


4      Randomly select a total of 10 employees who      We verified, without exception, that the selected
       have no Health Benefits from the three pay       employees did not elect Health Benefits coverage.
       periods selected for testing.
       Verify that the employees did not elect Health
       Benefits coverage.

5      Randomly select a total of 10 employees who      We verified, without exception, that the selected
       have no Life Insurance withholdings from the     employees did not elect Life Insurance coverage.

                                                   4
Step        Agreed-Upon Procedures Performed                             Results of Procedures
       three pay periods selected for testing.             employees did not elect Life Insurance coverage.
       Verify that the employees either waived or
       canceled Life Insurance coverage.

6a     Obtain existing payroll information supporting      The APO provided payroll information supporting
       the selected Supplemental Semiannual                the Semiannual Headcount report.
       Headcount report.

6b     Calculate the headcount by counting the             We calculated 16,113 employees in the payroll data
       number of employees (using a computer audit         file using a computer audit routine.
       routine) on the payroll data file for the period.

6c     Compare the results of payroll information          The total from the calculated headcount (step 6b)
       from step 6a with the calculated headcount          does not agree with the headcount report nor the
       from step 6b to the information shown on the        supporting documentation obtained (step 6a).
       Semiannual Headcount Report.

6d     Report any differences greater than 2 percent       There is a difference between the calculated
       between the agency’s Semiannual Headcount           headcount and the Semiannual Headcount Report of
       Report and the payroll information from step        3.07 percent.
       6a and the calculated headcount from step 6b.

7a     Calculate Retirement withholdings and               We did not find any variances between the
       contributions by multiplying the CSRS and           calculated amounts and the RITS submissions in
       FERS payroll base by the withholding and            excess of the 5 percent threshold.
       employer contribution rates required by law.
       Compare the calculated totals with related
       amounts shown on the RITS submissions.
       Report any variance greater than 5 percent.

7b     Calculate Health Benefit withholdings and           We did not find any variances between the
       contributions by multiplying the number of          calculated amounts and the RITS submissions in
       employees enrolled in each Health Benefit plan      excess of the 5 percent threshold.
       and plan option by the employee withholdings
       and employer contributions for the plan and
       option. Sum the totals and compare the result
       with the RITS submission. Report any
       variances greater than 5 percent.

7c     Calculate the Basic Life insurance withholdings     We did not find any variances between the
       and contributions:                                  calculated amounts and the RITS submissions in
       For employee withholdings: Add the product          excess of the 5 percent threshold.
       of 2,000 times the number of employees with
       Basic Life Insurance coverage to the aggregate
       annual basic pay for all employees selected;
7c     Compare the results with the RITS
       submission.
       For agency contributions: Divide the results
       by two – this approximates agency


                                                     5
Step       Agreed-Upon Procedures Performed                              Results of Procedures
       contributions, which are one-half of employee
       withholdings. Compare the results with the
       RITS submission.
       Report any variances greater than 5 percent.

7d     Calculate the Option A and Option C Life          The following variances were identified above the 2
       Insurance coverage withholdings for the three     percent threshold:
       pay periods selected by using the results of
       payroll system queries from step 6.a. Multiply                                   Percent
       the number of employees in each age group by      Pay Period 25                  Variance
       the appropriate rate for Option A or Option C.    Option C                         2.94
        Report any differences greater than 2 percent.
                                                         Pay Period 3
                                                         Option A                         -2.42
                                                         Option C                          2.57

                                                         Pay Period 6
                                                         Option C                          2.59




                                                  6
